APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (April 29, 2021) ......................... 1a
Order of the District Court of McCurtain County,
State of Oklahoma, with Findings of Fact and
Conclusions of Law (January 25, 2021) ................. 17a
Court of Criminal Appeals, State of Oklahoma,
Order Remanding for Evidentiary Hearing
(August 21, 2020) .................................................... 20a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(APRIL 29, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
DAKOTA SHAY FOX,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
NOT FOR PUBLICATION
No. F-2019-196
Before: Dana KUEHN, Presiding Judge,
Scott ROWLAND, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, David B. LEWIS, Judge,
Robert L. HUDSON, Judge.
OPINION REMANDING WITH
INSTRUCTIONS TO DISMISS
HUDSON, JUDGE:
Appellant, Dakota Shay Fox, was tried and convicted by a jury in the District Court of McCurtain
County, Case No. CF-2018-07, of Murder in the First
Degree, Malice Aforethought, in violation of 21 O.S.
Supp.2012, § 701.7. The jury recommended a sentence

App.2a
of life imprisonment without the possibility of parole.
The Honorable Gary Brock, Special Judge, presided at
trial and sentenced Appellant in accordance with the
jury’s verdict. Appellant now appeals from this conviction and sentence.
In Proposition I of his brief in chief on appeal,
Appellant claims the District Court lacked jurisdiction
to prosecute him. He relies on 18 U.S.C. § 1153 and
McGirt v. Oklahoma, 140 S. Ct. 2452 (2020), and argues
he is a member of the Choctaw Nation and the crime
occurred within the boundaries of the Choctaw Nation
Reservation.
On August 21, 2020, this Court remanded this case
to the District Court of McCurtain County for an evidentiary hearing. The District Court was directed to
make findings of fact and conclusions of law on two
issues—(a) Appellant’s status as an Indian; and (b)
whether the crime occurred in Indian Country. We
instructed that Appellant bore the initial burden of
presenting prima facie evidence as to his legal status
as an Indian and as to the location of the crime in Indian
Country. Upon such a showing, the burden shifts to the
State to prove it has jurisdiction.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we requested
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Our Order further provided that,
if the parties agreed as to what the evidence would
show with regard to the questions presented, the parties
could enter into a written stipulation setting forth
those facts upon which they agree. The breadth of the
parties’ stipulation determining whether a hearing on
the issues is necessary.

App.3a
As to Appellant’s status as an Indian, the District
Court was specifically ordered to determine whether
Appellant has some Indian blood and is recognized
as an Indian by a tribe or the federal government.1
To determine whether the crime occurred in Indian
Country, the District Court was directed to follow the
analysis set out in McGirt to determine (1) whether
Congress established a reservation for the Choctaw
Nation, and (2) if so, whether Congress specifically
erased those boundaries and disestablished the reservation. In doing so, the District Court was directed to
consider any evidence the parties provided, including
but not limited to treaties, statutes, maps, and/or testimony.
An evidentiary hearing in this case was timely
held before Judge Brock on October 5, 2020. Prior to
the hearing, Appellant filed Defendant/Appellant’s
Remanded Hearing Brief Applying McGirt Analysis
to Choctaw Nation Reservation, and the Choctaw
Nation filed an Amicus Curiae Brief in Support of the
Continued Existence of the Choctaw Reservation and
Its Boundaries. The State did not submit a brief. At
the hearing, the parties presented the court with agreedupon stipulations, which partially answered the questions presented to the court. As to Appellant’s status
as an Indian, the parties stipulated:
Defendant/Appellant, Dakota Shay Fox, has
1/4 Choctaw blood and was a member of the
Choctaw Nation of Oklahoma (Membership
1 See Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.
See also United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir.
2012); United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th
Cir. 2001).

App.4a
Number CN226351) at the time of the crime.
The Choctaw Nation of Oklahoma is an Indian
Tribal Entity recognized by the federal government.
(10/5/2020 Exhibit 1). No additional evidence was
presented with regard to this issue.
As to the location of the crime, the parties stipulated:
The crime in this case occurred near the
intersection of SE Adams and SE G streets
in Idabel, McCurtain County, Oklahoma. This
location is within the historical boundaries of
the Choctaw Nation—boundaries as set forth
in, and adjusted by, the 1855 and 1866 treaties
between the Chickasaw and Choctaw Nations
and the United States.
(10/5/2020 Exhibit 1). Appellant also introduced a packet
of exhibits titled “Defendant’s Evidentiary Hearing
Exhibits,” containing “some treaties, some federal acts,
the Choctaw Constitution and a map of the Choctaw
Reservation.” The State presented no additional evidence relating to this issue.
Appellant, for the most part, stood on the briefs that
had been submitted throughout the appeal process in
this case, including the appellate briefs filed with this
Court.2 While the State did not stipulate to Appellant’s status as an Indian, Appellant asserted the facts
agreed to by stipulation definitively resolved the issue.
2 Counsel for the Choctaw Nation of Oklahoma also elected to
stand on the Tribe’s amicus brief “in support of the continued
existence of the Choctaw Nation of Oklahoma Reservation and
its boundaries.”

App.5a
In addition to the agreed-upon facts relating to whether
the crime occurred in Indian country, Appellant argued
that the Choctaw Nation Reservation was created by
treaty and “is still intact to this day[.]” Appellant
observed that McGirt simplified the issue by “focusing
almost exclusively on the language that Congress has
spoken with, either in treaties or subsequent federal
legislation.” Appellant argued there is no evidence that
any acts of Congress clearly disestablished the Choctaw
Reservation.
The State inexplicably took “no position on [the two]
legal questions” before the District Court but merely
stipulated to the underlying facts. The State thus
neither advocated it had jurisdictional authority to
prosecute Appellant nor conceded its lack thereof.
As discussed below, the State continues this tactic on
appeal.
In its written findings of fact and conclusion of
law filed after the hearing, the District Court accepted
and found the facts as stipulated by the parties. The
court concluded: (1) Appellant was an Indian at the time
of the crime; and (2) the crime occurred within the
boundaries of the Choctaw Nation Reservation. As to
boundaries of the reservation, the court specifically
found there was “no evidence presented that Congress
has ever explicitly erased [the historical] boundaries
of the Choctaw Nation and disestablished that reservation.”
Both Appellant and the State filed with the Court
supplemental briefs after remand. Appellant argues
in his brief that “the record conclusively supports the
district court’s finding that [Appellant] is an Indian.”
As to whether the crime occurred in Indian Country,
Appellant notes that the parties agreed the crime

App.6a
occurred within the “Choctaw Nation’s [historical] boundaries [as] set by the treaties of 1855 and 1866.” Thus,
Appellant contends the only questions remaining are
whether these treaties created a reservation; and if so,
whether the reservation “continues to exist.” Appellant argues the answer to both these questions is “yes.”
Reviewing the evidence provided at the evidentiary
hearing under the standard of review set forth in
McGirt, Appellant argues this Court should affirm the
District Court’s findings. Appellant asserts that like
the Creek Reservation, “[n]o explicit language of total
withdrawal of the reservation exists in Choctaw treaties
or allotment acts” (citing McGirt, 140 S. Ct. at 2463).
Because the State did not and cannot point to any such
language regarding the Choctaw Reservation, Appellant
argues this Court should find that Congress did not
disestablish Choctaw Reservation.
In its response brief, the State acknowledges the
District Court accepted the parties’ stipulations as discussed above. The State also acknowledges the District
Court’s findings that Appellant was an Indian and the
crimes occurred in Indian Country. The State reiterates,
however, that it “takes no positon as to the existence,
or absence, of a Choctaw Reservation.” Should this Court
find Appellant is entitled to relief based on the District
Court’s findings, the State asks this Court to stay any
order reversing Appellant’s conviction for thirty days
to allow the United States Attorney’s Office for the
Eastern District of Oklahoma time to secure custody
of Appellant. Cf. 22 O.S.2011, § 846.
After thorough consideration of this proposition
and the entire record before us on appeal including
the original record, transcripts and the briefs of the
parties, we find that under the law and evidence relief

App.7a
is warranted. The State in effect stipulated to Appellant’s
legal status as an Indian. However, the State took no
position and presented no argument or evidence that the
Choctaw Nation Reservation had been disestablished
and thus the crime did not occur in Indian Country.
The State’s tactic of passivity has created a legal void
in this Court’s ability to adjudicate properly the facts
underlying Appellant’s argument. This Court is left
with only the trial court’s conclusions of law to review
for an abuse of discretion. We find no such abuse. See
State v. Delso, 2013 OK CR 5, ¶ 5, 298 P.3D 1192, 1194
(defining “an abuse of discretion”).
Based upon the record before us, the District
Court’s Order is supported by the evidence presented
at the evidentiary hearing. We therefore find Appellant
has met his burden of establishing his status as an
Indian, having 1/4 degree Indian blood and being a
member of the Choctaw Nation of Oklahoma tribe on
the date of the crime. We also find the District Court
appropriately applied McGirt to determine that Congress
established a Choctaw Nation Reservation and that
no evidence was presented showing that Congress
explicitly erased or disestablished the boundaries of
the Choctaw Nation or that the State of Oklahoma
had jurisdiction in this matter.3
Based on the foregoing, we find the State of Oklahoma did not have jurisdiction to prosecute Appellant
3 I maintain my previously expressed views on the significance
of McGirt, its far-reaching impact on the criminal justice system
in Oklahoma and the need for a practical solution by Congress.
See Bosse v. State, 2021 OK CR 3, ___ P.3d ___ (Hudson, J., Concur
in Results); Hogner v. State, 2021 OK CR 4, ___ P.3d ___ (Hudson, J.,
Specially Concurs); and Krafft v. State, No. F-2018-340 (Okl.Cr.,
Feb. 25, 2021) (Hudson, J., Specially Concurs) (unpublished).

App.8a
in this matter. The Judgment and Sentence in this case
is hereby reversed and the case remanded to the District
Court of McCurtain County with instructions to dismiss
the case.4
DECISION
The Judgment and Sentence of the District
Court is REVERSED AND REMANDED WITH
INSTRUCTIONS TO DISMISS. The MANDATE is
not to be issued until twenty (20) days from the
delivery and filing of this decision.5

4 This resolution renders the remaining two propositions of error
raised in Appellant’s brief moot.
5 By withholding the issuance of the mandate for 20 days, the
State’s request for time to allow the United States Attorney’s
Office for the Eastern District of Oklahoma to secure custody of
Appellant is rendered moot.

App.9a
AN APPEAL FROM THE DISTRICT COURT OF
MCCURTAIN COUNTY, THE HONORABLE
GARY BROCK, SPECIAL JUDGE
APPEARANCES AT TRIAL
Michael D. Morehead
Okla. Indigent Defense System
P.O. Box 926
Norman, OK 73070
Counsel for Defendant
Mark Uptegrove
Asst. District Attorney
Mccurtain County
108 N. Central Ave. #1
Idabel, OK 74745
Counsel for the State
Mike Hunter
Okla. Attorney General
Tessa L. Henry
Taylor Ledford
Asst. Attorneys General
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for the State
Jacob Keyes
Counsel for Choctaw Nation
1802 Chukka Hina
Durant, OK 74701

App.10a
APPEARANCES ON APPEAL
Maria T. Kolar
Michael D. Morehead
Okla. Indigent Defense System
P.O. Box 926
Norman, OK 73070-0926
Counsel for Appellant
Mike Hunter
Attorney General
Keeley L. Miller
Tessa L. Henry
Asst. Attorneys General
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for Appellee
Opinion By: Hudson, J.
Kuehn, P.J.: Concur in Result
Rowland, V.P.J.: Concur in Result
Lumpkin, J.: Concur in Result
Lewis, J.: Concur in Result

App.11a
KUEHN, PRESIDING JUDGE,
CONCURRING IN RESULT:
I agree with the Majority that the State of Oklahoma had no jurisdiction to try Appellant, and his case
must be dismissed. This Court recently found that the
Choctaw Reservation was not disestablished, and is
Indian Country. Sizemore v. State, 2021 OK CR 6, ¶¶ 1516. Because the issue of reservation status has already
been decided, I find the Majority’s discussion of it is
superfluous dicta. I further note that the Majority’s
inclusion of a blood quantum is unnecessary. This Court,
like the Tenth Circuit, requires only a finding of some
Indian blood to determine Indian status, and has
explicitly rejected a specific blood quantum requirement.6 Bosse v. State, 2021 OK CR 3, ¶ 19.
I also disagree with the Majority’s characterization
of the State’s position below as inexplicable. As I have
said before, the State’s decision to stipulate to some
issues and take no position on the issue of reservation
status was an available legal strategy and conserved
judicial resources.7 Hogner v. State, 2021 OK CR 4, ¶ 2
(Kuehn, P.J., concurring in result). And I repeat that
6 Inclusion of Appellant’s tribal membership number is also
inappropriate
7 This position is also entirely consistent with the State’s position
in civil Indian Child Welfare Act proceedings. On August 17, 2020,
the Oklahoma Department of Human Services, on behalf of the
State, entered into an Intergovernmental Agreement Between
the State of Oklahoma and the Choctaw Nation of Oklahoma
Regarding Jurisdiction Over Indian Children Within the Tribe’s
Reservation (filed, Oklahoma Secretary of State, Aug. 17, 2020).
Throughout the Agreement the State explicitly recognizes the
continued existence of the Choctaw Reservation.

App.12a
there is no “void” in the record. Petitioner provided the
trial court with law and evidence relevant to the jurisdictional issue. The State chose not to augment or
contest this law and evidence. The trial court’s findings and conclusions clearly set forth the details of the
material it used to make its decisions. Often, in a
criminal trial, the defendant does not offer evidence to
counter the evidence of guilt presented by the State.
And yet, this Court routinely finds the evidence is
sufficient for our review, without complaining that
the defendant’s choice leaves a void in the record. The
same is true here.

App.13a
LUMPKIN, JUDGE
CONCURRING IN RESULTS:
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must at a
minimum concur in the results of this opinion. While
our nation’s judicial structure requires me to apply
the majority opinion in the 5-4 decision of the U.S.
Supreme Court in McGirt v. Oklahoma, ___ U.S.
___,140 S. Ct. 2452 (2020), I do so reluctantly. Upon
the first reading of the majority opinion in McGirt, I
initially formed the belief that it was a result in search
of an opinion to support it. Then upon reading the
dissents by Chief Justice Roberts and Justice Thomas,
I was forced to conclude the Majority had totally failed
to follow the Court’s own precedents, but had cherry
picked statutes and treaties, without giving historical
context to them. The Majority then proceeded to do
what an average citizen who had been fully informed
of the law and facts as set out in the dissents would
view as an exercise of raw judicial power to reach a
decision which contravened not only the history leading
to the disestablishment of the Indian reservations in
Oklahoma, but also willfully disregarded and failed to
apply the Court’s own precedents to the issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my service
in the Marine Corps was that I had a duty to follow
lawful orders, and that same duty required me to resist
unlawful orders. Chief Justice Roberts’s scholarly and
judicially penned dissent, actually following the Court’s
precedents and required analysis, vividly reveals the
failure of the majority opinion to follow the rule of law
and apply over a century of precedent and history, and

App.14a
to accept the fact that no Indian reservations remain
in the State of Oklahoma.8 The result seems to be
some form of “social justice” created out of whole cloth
rather than a continuation of the solid precedents the
Court has established over the last 100 years or more.
The question I see presented is should I blindly
follow and apply the majority opinion or do I join with
Chief Justice Roberts and the dissenters in McGirt
and recognize “the emperor has no clothes” as to the
8 Senator Elmer Thomas, D-Oklahoma, was a member of the Senate
Committee on Indian Affairs. After hearing the Commissioner’s
speech regarding the Indian Reorganization Act (IRA) in 1934,
Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community without
you would go and buy land and put them on it. Then
they would be surrounded very likely with thickly
populated white sections with whom they would trade
and associate. I just cannot get through my mind how
this bill can possibly be made to operate in a State of
thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the United
States Senate Committee on Indian Affairs, February 27, 1934.
Senator Morris Sheppard, D-Texas, also on the Senate Committee
on Indian Affairs, stated in response to the Commissioner’s
speech that in Oklahoma, he did not think “we could look forward
to building up huge reservations such as we have granted to the
Indians in the past.” Id. at 157. In 1940, in the Foreword to Felix
S. Cohen, Handbook of Federal Indian Law (1942), Secretary of
the Interior Harold Ickes wrote in support of the IRA, “[t]he
continued application of the allotment laws, under which Indian
wards have lost more than two-thirds of their reservation lands,
while the costs of Federal administration of these lands have
steadily mounted, must be terminated.” (emphasis added).

App.15a
adherence to following the rule of law in the application
of the McGirt decision?
My oath and adherence to the Federal-State relationship under the U.S. Constitution mandate that I
fulfill my duties and apply the edict of the majority
opinion in McGirt. However, I am not required to do
so blindly and without noting the flaws of the opinion
as set out in the dissents. Chief Justice Roberts and
Justice Thomas eloquently show the Majority’s mischaracterization of Congress’s actions and history
with the Indian reservations. Their dissents further
demonstrate that at the time of Oklahoma Statehood
in 1907, all parties accepted the fact that Indian reservations in the state had been disestablished and no
longer existed. I take this position to adhere to my oath
as a judge and lawyer without any disrespect to our
Federal-State structure. I simply believe that when
reasonable minds differ they must both be reviewing
the totality of the law and facts.

App.16a
LEWIS, JUDGE, CONCURRING IN RESULTS:
Based on my special writings in Bosse v. State,
2021 OK CR 3, ___ P.3d ___ and Hogner v. State, 2021
OK CR 4, ___ P.3d ___, I concur in results in the decision to dismiss this case for the lack of state jurisdiction.

App.17a

ORDER OF THE DISTRICT COURT
OF MCCURTAIN COUNTY, STATE OF
OKLAHOMA, WITH FINDINGS OF FACT AND
CONCLUSIONS OF LAW
(JANUARY 25, 2021)
IN THE DISTRICT COURT IN AND FOR
McCURTAIN COUNTY STATE OF OKLAHOMA
________________________
STATE OF OKLAHOMA,
Plaintiff-Appellee,
v.
DAKOTA SHAY FOX,
Defendant-Appellant.
________________________
McCurtain County Case No. CF-18-07
Court of Criminal Appeals Case No. CF-19-196
Before: Gary L. BROCK, Judge of the District Court.
ORDER
This matter comes on this 15th day of October,
2020, before the undersigned Judge of the District Court,
with the State of Oklahoma represented by District
Attorney Mark Matloff, the defendant represented by
Michael D. Morehead, the Choctaw Nation of Oklahoma
represented by Jacob Keyes, The State of Oklahoma
represented by Tessa Henry and Taylor Ledford of the

App.18a
Oklahoma Attorney General’s Office, and the Court,
being fully advised in the premises, finds and adjudges:
The Court of Criminal Appeals of the State of
Oklahoma has remanded this case to the trial court
for an evidentiary hearing.
The District Attorney, the attorney for the defendant/appellant, and the Attorney General’s Office have
entered into a stipulation which is attached hereto as
Exhibit 1.
The Court finds the Defendant, Dakota Shay Fox,
is a 1/4th degree of Indian Blood of the Choctaw/Choctaw
Tribe and is a Tribal Member of the Choctaw Nation
of Oklahoma (Membership #CN226351) as evidenced
by the Stipulation of the parties.
The Court further finds the alleged crime occurred
near the intersection of SE Adams and SE “G” Streets,
Idabel, McCurtain County, Oklahoma which was within
the boundaries of the Choctaw Nation as evidenced by
the map attached hereto as Exhibit 2. The Court further
finds there is no evidence presented to the Court that
Congress has ever explicitly erased those boundaries
and disestablished that reservation.
/s/ Gary L. Brock
Judge of the District Court

App.19a

App.20a
COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, ORDER REMANDING
FOR EVIDENTIARY HEARING
(AUGUST 21, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
DAKOTA SHAY FOX,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
No. F-2019-196
Before: David B. LEWIS, Presiding Judge.,
Dana KUEHN, Vice President Judge.,
Gary L. LUMPKIN, Judge., Robert L. HUDSON,
Judge., Scott ROWLAND, Judge.
ORDER REMANDING FOR
EVIDENTIARY HEARING
Dakota Shay Fox was tried by jury and convicted
in the District Court of McCurtain County, Case No.
CF-2018-07, of Murder in the First Degree, Malice
Aforethought, in violation of 21 O.S.Supp.2012, § 701.7.
In accordance with the jury’s recommendation the
Honorable Gary Brock, Special District Judge, sentenced

App.21a
Appellant to life imprisonment without the possibility
of parole. Appellant appeals from this conviction and
sentence.
In Proposition One, Appellant claims the District
Court lacked jurisdiction to try him. Appellant argues
that he is a citizen of the Choctaw Nation and the
crime occurred within the boundaries of the Choctaw
Nation.
Pursuant to McGirt v. Oklahoma, No. 18-9526 (U.S.
July 9, 2020), Appellant’s claim raises two separate
questions: (a) his Indian status and (b) whether the crime
occurred in Indian Country. These issues require factfinding. We therefore REMAND this case to the District
Court of McCurtain County, for an evidentiary hearing
to be held within sixty (60) days from the date of this
Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request the
Attorney General and District Attorney work in coordination to effect uniformity and completeness in the
hearing process. Upon Appellant’s presentation of prima
facie evidence as to the Appellant’s legal status as an
Indian and as to the location of the crime in Indian
Country, the burden shifts to the State to prove it has
subject matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)
days after the filing of the transcripts in the District

App.22a
Court. The District Court shall address only the following issues.
First, the Appellant’s status as an Indian. The District Court must determine whether (1) Appellant has
some Indian blood, and (2) is recognized as an Indian
by a tribe or the federal government.1
Second, whether the crime occurred in Indian
Country. The District Court is directed to follow the
analysis set out in McGirt, determining (1) whether
Congress established a reservation for the Choctaw
Nation, and (2) if so, whether Congress specifically
erased those boundaries and disestablished the reservation. In making this determination the District Court
should consider any evidence the parties provide,
including but not limited to treaties, statutes, maps,
and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings of fact and conclusions of law, and any other
materials made a part of the record, to the Clerk of
this Court, and counsel for Appellant, within five (5)
days after the District Court has filed its findings of
fact and conclusions of law. Upon receipt thereof, the
Clerk of this Court shall promptly deliver a copy of
that record to the Attorney General. A supplemental
brief, addressing only those issues pertinent to the
evidentiary hearing and limited to twenty (20) pages
in length, may be filed by either party within twenty

1 See Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.
See also United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir.
2012); United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th
Cir. 2001).

App.23a
(20) days after the District Court’s written findings of
fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is necessary. Transmission of the record regarding the matter,
the District Court’s findings of fact and conclusions of
law and supplemental briefing shall occur as set forth
above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of McCurtain County:
Appellant’s Brief in Chief, filed December 2, 2019;
Appellant’s Reply Brief, filed April 9, 2020; and
Appellee’s Response Brief, filed March 24, 2020. The
present order renders MOOT any request made to
date for supplemental briefing by either party in this
case as well as any request to file an amicus brief.

App.24a
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 21st day of August, 2020.
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
ATTEST:
/s/ John D. Hadden
Clerk

